CASE NO.
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020

MALCOLM ELBRAY TRAYWICKS,JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PA UPERIS
Malcolm Elbray Traywicks,Jr.,the petitioner, by and through his attorney who
was previously appointed under the Criminal Justice Act by the United States Court
of Appeals for the Tenth Circuit, moves this Court for an order allowing petitioner
to proceed informa pauperis on his petition for writ of certiorari. Pursuant to Rule
39.1 ofthis Court and 18 U.S.C. ยง 3006A(d)(7), petitioner is not required to submit
the affidavit described in 28 U.S.C.ยง 1915(a)and prescribed in Form 4 ofthe Federal
Rules of Appellate Procedure.
Respect

ly subm'

d,

r

ALE EDWARD WACKENHEIM
ASSISTANT FEDERAL PUBLIC DEFENDER
SUITE 109, 215 DEAN A. McGEE AVENUE
OKLAHOMA CITY, OKLAHOMA 73102
(405)609-5930
COUNSEL FOR PETITIONER
MALCOLM ELBRAY TRAYWICKS,JR.

CERTIFICATE OF SERVICE
I hereby certify on this 18th day ofFebruary, 2021, a true and correct copy of
the above and foregoing Motion to Proceed In Forma Pauperis was mailed to Ms.
Elizabeth Prelogar, Acting Solicitor General, Department of Justice, 950
Pennsylvania Avenue,NW,Washington,D.C. 20530-0001, counsel for respondent,
and mailed to the office ofTimothy Downing,United States Attorney for the Western
District ofOklahoma,210Park Avenue,Suite 400,Oklahoma City,Oklahoma 73102.

YL EDWARD WACKENHEIM

2

